ASSESSMENT OF COST ACCOUNTING
    SYSTEM AND PRACTICES
      Federal Aviation Administration

       Report Number: FI-2008-045
       Date Issued: March 21, 2008
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Assessment of Cost Accounting System                             Date:      March 21, 2008
           and Practices
           Federal Aviation Administration
           Report No. FI-2008-045

  From:    Mark H. Zabarsky                                                        Reply to
                                                                                   Attn. of:   JA-60
           Assistant Inspector General for
            Acquisition and Procurement Audits

    To:    Acting Federal Aviation Administrator

           In accordance with the Wendell H. Ford Aviation Investment and Reform Act for
           the 21st Century [(AIR-21), Public Law 106-181], we assessed the Federal
           Aviation Administration’s (FAA) progress in implementing a cost accounting
           system. AIR-21 required five assessments of eight specific areas covering FAA’s
           methods for calculating and assigning costs to specific users, including whether
           these methods are appropriate, reasonable, and understandable. This is our final
           assessment report as required by AIR-21. 1

           FAA began developing its cost accounting system in 1996, as directed by the
           Federal Aviation Reauthorization Act of 1996. The Act required FAA to develop
           a cost accounting system that adequately and accurately reflected the investments,
           operating and overhead costs, revenue, and other financial measurements and
           reporting aspects of its operations. In 1997, the National Civil Aviation Review
           Commission also recommended that FAA establish a cost accounting system to
           manage its resources in a businesslike manner.

           Since 1996, FAA has spent more than $66 million to complete the implementation
           of its cost accounting system. During this same period, FAA’s total budget almost
           doubled, from about $8 billion in fiscal year (FY) 1996 to about $14 billion in FY
           2007 (see figure 1). A multibillion-dollar organization such as FAA must have a
           cost accounting system that provides visibility into the cost of its operations to
           help management shape decisions and establish priorities. FAA’s cost accounting

           1
               VISION-100, the Century of Aviation Reauthorization Act (Public Law 108-176), followed AIR-21, expired at the
               end of September 2007 and did not retain this specific provision.
                                                                                                               2


system should provide managers and executives with the information they need to
identify and eliminate wasteful spending, hold or reduce operating costs, and
better link financial performance to mission objectives.

       Figure 1. Growth in FAA’s Annual Budget, FYs 1996–2007
                             ($ in billions)

              Facilities and Equipment, Airports, and Research and Development Expenses
              Operations and Maintenance Expenses
$15
 14
 13
 12
 11
 10
  9
  8
  7
  6
  5
  4
  3
  2
  1
  0
        FY       FY       FY      FY       FY       FY       FY       FY       FY      FY       FY       FY
       1996     1997     1998    1999     2000     2001     2002     2003     2004    2005     2006     2007

      Source: FAA’s enacted budgets and budget submissions from FY 1996 through FY 2007. The
      actual dollar amounts comprising figure 1 are in exhibit B.


Our audit objectives were to determine the status of the cost accounting system
implementation and assess the eight areas specified in AIR-21 concerning FAA’s
methods of calculating and assigning costs to specific users, including whether
these methods are appropriate, reasonable, and understandable. 2 We conducted
this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. A detailed description of our audit scope and methodology is
presented in exhibit A.



2
    This review focuses on the cost accounting system. It does not address FAA’s proposed cost allocation or user fee
    calculation.
                                                                                3


On December 13, 2007, we briefed FAA’s Office of Financial Management staff
on the results of our assessment. The charts from that briefing are included in
exhibit D. We also conducted meetings with these managers to discuss our
conclusions and recommendations on April 12, September 26, and October 22,
2007. The results of our assessment are summarized as follows.

FINDINGS
AIR-21 requires that OIG assess eight specific areas regarding FAA’s progress in
implementing a congressionally-mandated cost accounting system. This report
summarizes key findings concerning FAA’s cost accounting and labor distribution
systems as of September 30, 2007.

FAA has made significant progress since our last assessment report in November
2004. During FY 2006, it completed the implementation of the cost accounting
system. Executives in all four FAA lines of business—the Air Traffic
Organization (ATO), Aviation Safety, Airports, and Commercial Space—are
receiving management reports from the cost accounting system on a quarterly
basis. Additionally, in FY 2007, FAA finalized implementation of the labor
distribution system to manage its $6.6 billion annual labor costs—FAA’s single
largest cost element.

Overall, FAA’s cost accounting system is properly designed to assign costs
directly to responsible service organizations; however, management needs to (1)
stay vigilant in order to maintain the integrity of the underlying financial data,
(2) continue enhancing controls over labor cost distribution, (3) identify the full
cost of facilities and use these cost data to manage operations, and (4) ensure the
cost accounting processes are properly documented.

Congress is currently considering legislation to reauthorize FAA’s programs
through FY 2011. One legislative proposal calls for cost-based fees for aircraft
certification and registration and air traffic control for overflights—those aircraft
flights that neither take off nor land in the United States. FAA’s cost accounting
system is capable of supporting these fees.

Integrity of the Underlying Financial Accounting Data for Property
and Related Expenses Remains Unstable
In FY 2006, FAA received a qualified audit opinion on its financial statements
because it could not adequately support the Construction in Progress (CIP) asset
balance, totaling $4.7 billion as of September 30, 2006. FAA lacked sufficient
internal controls over its financial management practices for capitalizing Property,
Plant, and Equipment, which included CIP asset balances.
                                                                                 4


During FY 2007, FAA executed an extensive corrective action plan, including a
complete review of the CIP balance reported as of September 30, 2006. FAA’s
review of CIP resulted in a significant restatement of the DOT FY 2006 financial
statements, including a reclassification of $1.7 billion from CIP to in-use fixed
assets and more than $900 million from CIP to expense. Since more than $900
million should have been recorded as expenses through FY 2006, costs associated
with individual service delivery points were understated in the cost accounting
system.

In its FY 2007 audit report, KPMG 3 again identified the processing of transactions
and accounting for Property, Plant, and Equipment including the CIP account, as a
material weakness. KPMG noted that FAA had not fully complied with
standardized policies and procedures on unit costs, overhead allocations, and entry
of transactions in the fixed asset subsidiary ledger, to ensure CIP and related Plant,
Property & Equipment balances were accurate, complete, and recorded in a timely
manner throughout the year. Substantial manual processes were necessary for
FAA to account for and report CIP transactions occurring during FY 2007 and to
determine the appropriate balances reported at year end. The accuracy of the CIP
account and FAA’s corrective actions were addressed in our report FI-2008-011,
“DOT's Consolidated Financial Statements for FY07 and FY06,” dated November
13, 2007. 4

Accurate CIP data would permit ATO financial managers to gain better insight
into the full costs of facilities and activities, allowing them to better identify ways
to increase efficiency and productivity leading to cost savings. FAA must stay
vigilant in maintaining the integrity of its underlying financial accounting data.

Controls Over the Distribution of Labor Costs Have Improved,
Continued Enhancement Needed
FAA has implemented its labor distribution system to manage its annual labor
costs. It has corrected various control deficiencies that we reported in the past,
such as allowing controllers to override system clocks when checking in and out
of their shifts. Despite these improvements, we continue to find that FAA
employees are not consistently charging their time to valid projects. This results
in excessive labor costs being processed as “No Project” and recorded as overhead
(indirect cost), instead of direct labor hours in the labor distribution system.
Recording hours as “No Project” overstates overhead costs and understates costs
associated with direct projects at facilities’ air traffic control towers and en route
centers.


3
    KPMG was under contract to us and under our supervision.
4
    OIG products can be found on our website at: www.oig.dot.gov
                                                                               5


FAA has taken steps to reduce its “No Project” labor charges. For example, it
reduced the number of labor hours not charged to valid projects from 27 percent,
valued at about $1.8 billion as of September 30, 2004, to about 4.4 percent, valued
at about $290 million, as of September 30, 2007. Although it is not realistic for a
large organization such as FAA to achieve perfect accuracy, more can be done to
further reduce the labor hours charged to “No Project.” Areas needing attention,
sometimes resulting in inaccurate reporting of labor costs, are discussed below.

Employees and Supervisors Are Not Consistently Following Labor
Distribution System Policies
FAA employees are not consistently entering time charges to projects in the labor
distribution system in a timely manner. FAA Order 2700.37, which established
agencywide FAA policy on labor distribution reporting, requires that employee
time charges be entered into the labor distribution system, noting the hours worked
by project during a pay period, which a supervisor then approves. If employees’
labor hours are not entered into the system and certified by the required date, they
are automatically charged to "No Project."

FAA placed its emphasis on completing the labor distribution system for its entire
organization. During this past year, management began focusing its attention on
training employees to properly use the system. As of August 9, 2007, all FAA
employees completed such training. Also, at the Headquarters level, FAA began
tracking labor hours charged to “No Projects.” FAA needs to monitor this process
to ensure employees are following its policies to enter time charges in the system
in a timely manner.

System Interface Problem Contributing to Controllers’ Labor Hours Being
Charged to “No Project”
An interface deficiency between two computerized timekeeping systems—Air
Traffic Organization (ATO) Resource Tool (ART) and CruSupport—contributed
to labor costs that could not be identified by specific project. Approximately
14,500 air traffic controllers enter their time charges into ART. The ART
collection system then inputs time charges into the CruSupport timekeeping
system for all ATO employees.

The interface problem between the two systems occurs because ART records time
charges in minutes and CruSupport converts those minutes into
fractions-of-an-hour. For example, 80 minutes in ART converts to 1.33333 hours
in CruSupport; however, CruSupport would only display 1.33 hours. More than
80.00 hours can accumulate per pay period when these additional fractional hours
are summed, resulting in direct project charges being defaulted to the “No Project”
code. This conversion problem understates time spent on direct projects at air
traffic control facilities.
                                                                                                       6


During our review in June 2007, FAA took action to address these problems by
modifying CruSupport to add an extra decimal place when totaling hours worked
per day. FAA timekeepers can now make manual adjustments using a Minute-to-
Decimal Conversion Table to help ensure exactly 80 hours are computed in
CruSupport. Although this will not fully correct the problem, it helps identify if
80 hours are exceeded in CruSupport. A system change request is planned to fully
correct the problem; however, due to higher priorities, FAA does not have a
planned date to implement it.

New Project Codes Are Delayed and “No Project” Charges Are Not Being
Corrected Timely
New project codes are taking up to 3 weeks to become available in the Cru-X
labor distribution system. Delays exist because the processes to obtain these new
codes are cumbersome. New projects first require funding approval from the
Budget Office. Upon obtaining this approval, new project information is
established in Delphi, the financial management system, and subsequently in the
cost accounting system. Adding to administrative delays is the fact that new
projects are only updated and made available once a week in the Cru-X labor
distribution system. In the absence of new project codes, FAA employees charge
“No Project.”

According to FAA financial managers, it takes 2 weeks to either correct or amend
“No Project” charges; however, we found that it often took a great deal longer.
We judgmentally selected 14 employees who had a total of 6,593 hours charged as
“No Project” during FY 2006. Only 224 hours, which represented a portion of
“No Project” hours recorded for one employee, were corrected within 2 weeks.
None of the remaining 6,369 hours were corrected during the entire fiscal year.
FAA has standard compliance reports that identify individuals with “No Project”
charges; however, not all managers were aware of, or had been trained in using,
the reports.

FAA Did Not Identify Full Cost of Individual Facilities or Use Cost
Accounting Data to Manage Operations
FAA does not accumulate the full costs of its individual facilities. Federal
Accounting Standards require agencies to report the full cost of outputs by
responsibility segment. 5 Outputs are the services or products produced and
delivered by the responsibility segment or the missions or tasks performed by the
segment. As such, the costs assigned to outputs are direct and indirect costs
incurred within the responsibility segment. Knowing the full operating costs for

5
    A responsibility segment is a component of a reporting entity that is responsible for carrying out a
    mission, conducting a major line of activity, or producing one or a group of related products or services.
    FAA defines responsibility segments as its lines of business.
                                                                                                              7


each facility is essential for developing benchmarks and performance goals that
will reduce costs and improve services. With reliable facility-level cost
information, FAA managers could compare the full costs of similar facilities and
focus on costs that should be reduced.

Also, FAA does not consistently use data in the cost accounting system to manage
its operations. Using the available cost accounting information to identify
opportunities to reduce costs or increase efficiency is a primary purpose of a cost
accounting system.

FAA Did Not Fully Allocate Operating Expenses to FAA Service Facilities
In November 2004, we reported that FAA did not properly assign more than
$1 billion in investment costs—development, asset implementation, and asset
depreciation—annually to its individual facilities. As of June 30, 2007, FAA
continues to report these costs, now more than $1.5 billion, as lump-sum amounts
rather than as costs of individual facilities. This practice does not comply with
Federal accounting standards, which require agencies and responsibility segments
to account for the full cost of their outputs and services in cost accounting systems
and general purpose financial reports. The standards also require that costs not
directly identifiable with a final cost objective or facility, or benefiting more than
one facility, be assigned on a cause-and-effect basis or allocated as overhead to
those objectives or facilities.

ATO assigns these investment costs at the service level, 6 one level above its
individual facilities. While the service level is an integral part of ATO’s
operations, they represent costs at too high a level to be useful to managers for
decision-making purposes. Also, the costs associated with this level are too broad
to tie to a particular output, such as the services being performed at an individual
air traffic control facility.

FAA Still Is Not Using Cost Accounting Information When Managing Its
Operations
FAA placed emphasis on completing the implementation of the cost accounting
system for each line of business. Since that completion in FY 2006, FAA has
made little use of this information when managing its operations and reporting on
performance measures, instead relying on other information, such as budget data
and Delphi data, to do so.

According to Statement of Federal Financial Accounting Standard No. 4, a
primary reason for using information in the cost accounting system is to measure
performance. The standard notes that such information should be used to assess

6
    ATO defines service level as en-route centers, oceanic centers, terminals, and flight service stations.
                                                                                8


how much it costs to perform whatever is being measured, thus allowing an
assessment of whether that cost seems reasonable. It also allows the opportunity
to establish a baseline for comparison against what it costs others to perform
similar work or achieve similar results. Using the system as intended would help
FAA identify ways to reduce costs and determine the most efficient practices at all
locations.

FAA Has Not Adequately Documented Procedures Governing Cost
Accounting System Processes
System documentation is a standard information technology control often
overlooked and undervalued. FAA’s documentation of the cost accounting
system’s procedures does not contain the level of detail necessary to provide
employees and users with an adequate understanding of the system. Documents
such as the memorandum of agreement for each line of business defining system
objectives and scope are vague and missing important information. To illustrate,
the memorandums do not contain procedures for producing cyclical reports or
making manual adjustments in the system. Statement of Federal Financial
Accounting Standard No. 4 states, “All managerial cost accounting activities,
processes, and procedures should be documented by a manual, handbook, or
guidebook of applicable accounting operations. This reference should outline the
applicable activities, provide instructions for procedures and practices to be
followed, list the cost accounts and subsidiary accounts related to the standard
general ledger, and contain examples of forms and other documents used.”

As a result, system knowledge and processes, such as adjusting costs not charged
to projects or lines of business, are retained by only a few key personnel within the
Cost Accounting Division. By relying on individual knowledge, FAA is subjected
to unnecessary risks, in the absence of these individuals, that it could be deprived
of the requisite knowledge and information necessary to address system and
operational issues.

FAA managers acknowledge the importance of adequate documentation and, in
June 2007, contracted with an outside party to create a plain language document
explaining the process for each line of business. FAA plans to complete the
system documentation in early 2008.

Our recommendations to FAA are designed to ensure that employees charge valid
projects, including making system changes to enhance the accuracy of data
reported in the cost accounting system; ensure more equitable allocation of
acquisition and indirect costs; and ensure that FAA documents and uses the cost
accounting system to manage operations. Our detailed recommendations follow.
                                                                             9


RECOMMENDATIONS

We recommend that the Acting FAA Administrator direct the Chief Financial
Officer to:

1. Strengthen procedures and controls to ensure that hours worked are charged to
   the proper projects, instead of “No Project,”

2. Comply with Statement of Federal Financial Accounting Standard No. 4 and
   use cost accounting system data to measure performance and manage
   operations for all lines of business, and

3. Ensure that the cost accounting system documentation complies with Federal
   accounting standards.

The Acting FAA Administrator should also direct the Chief Operating Officer,
ATO, to:

4. Implement the system change request in the ART system to prevent hours
   being charged to “No Project” by March 31, 2008; and

5. Distribute all acquisition costs for ATO to each service delivery point, and
   report the results to FAA management.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with a draft of this report on December 26, 2007, and received
FAA’s reply on February 20, 2008. FAA concurred with recommendations 1
through 4, and partially concurred with recommendation 5. FAA’s entire response
is included as an appendix to this report.

Recommendation 1: FAA stated that it will train staff on the use of labor
distribution system reporting tools by April 2008 and continue actions to improve
timekeeping internal controls and reduce “No Project” charges. For example,
FAA stated that they will continue to use labor distribution system quality
assurance and finance groups to monitor labor distribution system issues and help
reduce non-compliance rates for labor charging.

Recommendation 2: FAA stated that it is continuing efforts to use cost
accounting system data to examine and improve agency operations. As a new
business plan goal beginning in FY 2007, the CFO requested that each line of
business report on cost efficiency metrics using the cost accounting system within
                                                                              10


90 days of the end of each reporting quarter. The first set of “90 Day” reports
were received in February 2008 and FAA provided us copies of these reports.
FAA officials stated that they will continue to work with lines of business to
improve the quality of the “90 Day” reports. As part of the “90 Day” reviews, the
Office of Financial Management will:

   • Work with lines of business to identify cost efficiency metrics using cost
     accounting data. For instance, comparing costs of operations between two
     similar units within a line of business.

   • Determine the utility of using cost accounting system data in daily
     operations.

Recommendation 3: FAA stated that its cost methodology report is being
updated to reflect how the cost accounting system operated in FY 2006. On
February 29, 2008, FAA provided us with a copy of its FY 2006 Costing
Methodology Report. FAA also stated that it is in the process of documenting the
methodology used for FY 2007 cost accounting system data, including the portion
of the system for the Offices of Airports and Aviation Safety. FAA plans to
complete the documented version of the system for FY 2007 by June 30, 2008.

Recommendation 4: FAA stated that the May 1, 2008, release of CRU-X/ART
will no longer convert time to decimals and the May 15, 2008, release of Cru-
Support will record all time in minutes.

Recommendation 5: FAA stated that it will first conduct a cost-benefit analysis
by June 30, 2008, to determine the additional processes and reports needed to fully
distribute and manage all costs at the service delivery point. FAA stated it will
notify us of their decision by July 31, 2008.

FAA also indicated that their review of the Statement of Federal Financial
Accounting Standard No. 4 indicates that they have considerable flexibility
defining its cost centers. FAA stated that distributing costs to its service delivery
points would degrade the usefulness of the reporting structure and apply costs for
which the service delivery point does not manage or is not responsible.

OIG Response:

Regarding recommendation 5, we agree that Statement of Federal Financial
Accounting Standard No. 4 allows some flexibility in defining cost centers;
however, in our opinion, FAA needs to collect and report costs by service delivery
point locations to the greatest extent practical. Specific cost information for each
service delivery point is necessary for managers to compare performance among
delivery point locations.
                                                                           11


ACTIONS REQUIRED
FAA’s response and planned actions address the intent of our recommendations.
We therefore consider recommendations 1 through 5 resolved but open until FAA
completes its proposed actions. We request that FAA provide us with its cost-
benefit analysis on whether it intends to fully distribute and manage all costs to
service delivery points.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-5225, or Terrence Letko, Program Director, at (202) 366-9917.

                                        #

cc:   Chief Financial Officer
      Chief Operating Officer, ATO
      Director, Office of Financial Management
      Anthony Williams, ABU-100
      Martin Gertel, M-1
                                                                               12



EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
AIR-21 requires that OIG assess eight specific areas regarding FAA’s progress in
implementing a congressionally-mandated cost accounting system. This report
summarizes key findings concerning FAA’s cost accounting and labor distribution
systems as of September 30, 2007.

Our audit objectives were to determine the status of the cost accounting system
implementation and to assess the following eight areas specified in AIR-21
concerning FAA’s methods of calculating and assigning costs to specific users,
including whether these methods are appropriate, reasonable, and understandable:
(1) method for calculating and assigning costs to users, (2) integrity and reliability
of cost input data, including source documents and data collection processes, (3)
system for tracking assets, (4) methods for establishing asset values and
depreciation, (5) internal controls over cost data, (6) definition of services to
which it attributes costs, (7) overhead pools and the reliability of the bases used
for assigning common costs, and (8) use of cost and performance management for
improving performance and productivity.

We assessed control risks and compliance with applicable laws and regulations.
Our assessment of control risks account for the fact that we did not specifically
examine all internal controls that may be applicable to FAA’s cost accounting
system while the system was still under development. The analyses we performed
(1) provided an understanding of the design of the internal controls, (2)
determined whether the internal controls had been placed in operation, and
(3) determined whether the internal controls were sufficient to assess the control
risks associated with the cost accounting system. Our audit was not an audit of
FAA’s Cost Allocation Plan for Reauthorization and establishing user fees.
Consequently, our audit results should not be used as a basis to evaluate user fees.

This report also relies on evaluations of financial, labor distribution, and cost
accounting system records and prior work we performed on FAA’s cost
accounting system and annual financial statements. We interviewed FAA financial
managers, including those responsible for developing and operating the cost
accounting system; reconciled expenses, revenue, gains, and losses in Delphi to
the amounts reported in the cost accounting system; floorchecked managers and
staff to understand the reasonableness of the design of the system and adherence to
timekeeping procedures; judgmentally tested financial transactions, tracing them
to supporting records; reviewed procedures for recording transactions without cost
centers; and verified whether all air traffic control facilities were accounted for in
the cost accounting system.




Exhibit A. Objectives, Scope, and Methodology
                                                                         13


We conducted this performance audit between March 2004 and November 2007.
We performed our audit at FAA Headquarters in Washington, DC; the William J.
Hughes Technical Center in Atlantic City, New Jersey; and the Mike Monroney
Aeronautical Center in Oklahoma City, Oklahoma. We performed this audit in
accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. We included our response to the eight required assessment areas as
part of the briefing slides at exhibit D.




Exhibit A. Objectives, Scope, and Methodology
                                                                  14



EXHIBIT B. GROWTH IN FAA’S ANNUAL BUDGET, FISCAL
YEARS 1996–2007 (DOLLARS IN BILLIONS)


                 Operations and   F&E, Airports,
        Fiscal    Maintenance       and R&D
        Year       Expenses         Expenses       Total Budget
         1996         $4.6             $3.6            $8.2
         1997         $5.0            $3.56           $8.56
         1998         $5.3            $3.81           $9.11
         1999         $5.6            $4.15           $9.75
         2000         $6.0            $3.94           $9.94
         2001         $6.6            $5.92           $12.52
         2002         $6.9            $6.63           $13.53
         2003         $7.1            $6.41           $13.51
         2004        $7.48            $6.39           $13.87
         2005        $7.70            $6.12           $13.82
         2006        $8.10            $6.21           $14.31
         2007        $8.37            $6.16           $14.53




Exhibit B. Growth in FAA’s Annual Budget, Fiscal Years 1996-2007
(Dollars in Billions)
                                                           15



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


NAME                              TITLE
Terrence Letko                    Program Director

Thomas Wiener                     Project Manager

Adam Schentzel                    Project Manager

Jill Cottonaro                    Management Analyst

Leslie Mitchell                   Auditor

Narja Hylton                      Auditor

Michael P. Fruitman               Communications Adviser

Jean Diaz                         Writer/Editor

Harriet Lambert                   Writer/Editor




Exhibit C. Major Contributors to This Report
                                                                                    16




EXHIBIT D. BRIEFING TO FAA ON COST ACCOUNTING
SYSTEM




                    Assessment of FAA Cost
                    Accounting System and
                    Practices

                       Office of the Inspector General
                                 FAA Briefing
                             December 13, 2007




           Table of Contents

             Wendell H. Ford Aviation Investment and Reform Act for
              the 21st Century (AIR-21, Pub. L. 106-181)
             Scope and Methodology
             Findings
              1.   Integrity of Underlying Financial Accounting Data for Property
                   and Related Expenses Remains Unstable.
              2.   Controls Over Distribution of Labor Costs Improved,
                   Continued Enhancement Needed.
              3.   FAA Has Not Identified Full Cost of Facilities to Manage
                   Operating Costs.
              4.   FAA Has Not Adequately Documented Procedures
                   Governing Cost Accounting System Process.
             Recommendations
             Assessment Areas
                                                                              2




Exhibit D. Briefing to FAA on Cost Accounting System
                                                                                  17



          Wendell H. Ford Aviation
          Investment and Reform Act for
          the 21st Century (AIR-21)

           AIR-21 directed OIG assessment of FAA’s progress
             in implementing a cost accounting system.
           AIR-21 requires assessments of eight specific
             areas covering FAA’s methods for calculating and
             assigning costs to specific users, and whether
             these methods are appropriate, reasonable, and
             understandable.




                                                                          3




           Scope and Methodology

            Our audit steps included the following procedures:
                 Interviewed FAA financial managers, including those
                  responsible for developing and operating the cost
                  accounting system (CAS).
                 Reconciled expenses, revenue, gains, and losses in
                  Delphi to the amounts reported in the cost accounting
                  system for FY 2006.
                 Conducted floorchecks of managers and staff to
                  understand the reasonableness of the design of the
                  system and adherence to timekeeping procedures.




                                                                              4




Exhibit D. Briefing to FAA on Cost Accounting System
                                                                             18




          Scope and Methodology (cont’d)

           Judgmentally sampled transactions, traced them to
             supporting documentation, and reviewed procedures for
             recording transactions without cost centers, and other
             adjustments.
           Developed an understanding of the design of the internal
             controls and determined whether they had been placed in
             operation and were sufficient to assess the control risk.
           Coordinated with auditors on reviews of FAA’s financial
             statements and CAS, and followed up on significant findings
             and recommendations.



                                                                         5




          Finding 1

         Integrity of the Underlying Financial
         Accounting Data for Property and Related
         Expenses Remains Unstable
             In FY 2006, FAA received a qualified opinion on its
              financial statements because it could not adequately
              support the Construction in Progress (CIP) asset balance
              totaling $4.7 billion as of September 30, 2006.
             FAA had not institutionalized internal controls over its
              financial management practices for capitalizing Property,
              Plant, & Equipment (PP&E), which includes CIP.



                                                                         6




Exhibit D. Briefing to FAA on Cost Accounting System
                                                                                    19




          Finding 1 (cont’d.)


                     Polices and procedures lacked clear instruction on
                      capitalizing research and development.
                     Controls were lacking to ensure CIP projects are
                      capitalized and depreciated timely after assets are in
                      service.
                     CIP balances were not reconciled to subsidiary records.
                  In October 2007, FAA completed a detailed review of
                   CIP balances and revised its FY 2006 financial
                   statements. These procedures helped FAA receive an
                   unqualified audit opinion for its revised FY 2006
                   financial statements and an unqualified opinion for FY
                   2007.

                                                                                7




          Finding 1 (cont’d.)

                  As part of its review, FAA reclassified $2.6 billion of
                   the $4.7 billion CIP balance due to accounting errors.
                   Of the $2.6 billion, $1.7 billion should have been
                   capitalized because assets reported in CIP were in
                   use. Also, more than $900 million should have been
                   recorded as expense rather than CIP.
                  Although FAA’s intensive effort corrected CIP
                   balances, the FY 2007 financial statement audit
                   concluded a material weakness still exists because
                   the design and implementation to ensure that CIP
                   and related processes are operating effectively are
                   not in place. Not all of the conditions that led to
                   material weakness for FY 2006 were corrected.

                                                                                8




Exhibit D. Briefing to FAA on Cost Accounting System
                                                                                       20




          Finding 1 (cont’d.)

           Not properly accounting for CIP resulted in the
            understatement of depreciation and acquisition
            expenses in CAS.

           FAA plans to contract for a review of internal controls
            of its capitalization process and execute a
            Capitalization Program Management Plan to
            institutionalize needed changes.




                                                                                  9




           Finding 2

            Controls Over Distribution of Labor Costs Improved,
            Continued Enhancement Needed
              In FY 2006, labor costs accounted for 46 percent of FAA’s
               total costs. FAA made significant progress by
               implementing labor distribution system (LDR) for
               employees. LDR involves recording actual hours worked
               on projects and enhances accuracy of labor costs
               assigned to facilities and activities.

              FAA has corrected all previously reported deficiencies
               related to how air traffic controllers account for labor in
               LDR.
                  Actual start times and time spent on indirect activities for
                   controllers are being recorded.
                                                                                  10




Exhibit D. Briefing to FAA on Cost Accounting System
                                                                                21




          Finding 2 (cont’d.)

           In FY 2004, when FAA began implementing LDR, about
            27 percent or $1.8 billion of labor was recorded as “No
            Project.”

           Based on our prior findings, FAA is taking action to reduce
            the amount of labor hours charged to an invalid “No
            Project” code in LDR. “No Project” charges misstate labor
            charges, causing overhead (indirect costs) to be higher
            and direct charges to be lower than actual.




                                                                          11




           Finding 2 (cont’d.)
            As a result of corrective actions taken, “No Project” hour
             charges were reduced to about 13 percent, or $820
             million, for FY 2006 and were further reduced to 4.4
             percent, or about $290 million, for FY 2007.
            Despite the improvement, we continue to identify
             opportunities to reduce invalid “No Project” charges by
             strengthening controls and correcting a design weakness.




                                                                           12




Exhibit D. Briefing to FAA on Cost Accounting System
                                                                                         22




          Finding 2 (cont’d.)
           Misstating the direct hour charges to projects reduces
            reliability of the labor costs assigned to individual facilities
            and activities in CAS, such as air traffic control towers and
            aircraft repair stations.
           Misstating direct hour charges impacts accuracy of
            overhead costs being allocated to direct projects. For
            example, each $100 of direct project costs at an air traffic
            control tower should include an allocation of $105 of
            overhead costs for FY2006.




                                                                                   13




           Finding 2 (cont’d.)

            Several reasons exist why significant numbers of labor
              codes continue to be charged “No Project”:
                  Lack of accountability for completing and certifying
                   timesheets.
                       Employees not entering their time into the system, and
                        managers not verifying accuracy of the charges by required
                        date. Missing or uncertified hours reported as “No Project.”
                       FAA concentrated on finalizing implementation of the labor
                        distribution system. FAA since shifted focus on training and
                        monitoring compliance for the LDR timekeeping order. These
                        efforts decreased “No Project” cost rates.
                       Employees completed training by August 9, 2007.
                       FAA managers began tracking organizations with significant
                        “No Project” costs.



                                                                                    14




Exhibit D. Briefing to FAA on Cost Accounting System
                                                                                  23




          Finding 2 (cont’d.)

               Systems interface problem contributing to controllers’ labor
                hours charged to “No Project.”

                 Controller time is rounded during conversion from minutes in
                  the Air Traffic Organization Resource Tool “ART” (the time
                  collection system for controllers) to fractions-of-an-hour in
                  CruSupport (the timekeeping system). This can result in
                  more than 80 hours charged for bi-weekly pay periods.
                  When more than 80 hours charged, all direct project hours
                  default to “No Project” (overhead).

                 For example, 100 minutes in ART converts to 1.66666 hours
                  in CruSupport; however, CruSupport displays 1.66 hours.
                  More than 80.00 hours can occur when additional fractional
                  hours are summed for a pay period resulting in direct project
                  charges defaulting to “No Project.”
                                                                           15




           Finding 2 (cont’d.)

                  FAA implemented procedure to identify when 80 hours are
                   exceeded in CruSupport. This allows manual adjustments to
                   prevent conversion errors. FAA also established a system
                   change request to eliminate the conversion problem;
                   however, it is being delayed due to other priorities.

             The creation of new project codes are delayed and could
              take up to 3 weeks to become available for labor charging.
              The Budget Office must approve funds for each new
              project request. New project codes are established in
              Delphi and the cost accounting system; however, they are
              only updated weekly in the Cru-X labor distribution system.



                                                                            16




Exhibit D. Briefing to FAA on Cost Accounting System
                                                                                      24




          Finding 2 (cont’d.)

                 In absence of the new project codes, FAA employees charge
                  their labor hours to “No Project.”

           “No Project” charges not being corrected timely.    FAA
            officials indicated all “No Project” charges should be
            corrected within two weeks. Despite this emphasis, our
            judgmental review of 14 employees’ “No Project” charges
            for FY 2006 found only one employee had any invalid
            charges corrected by year end. Only 224 of the 6,593 “No
            Project” hours reviewed were corrected.




                                                                               17




           Finding 3
          FAA Did Not Identify Full Cost of Facilities
          to Manage Operating Costs

           Federal accounting standards require agencies to identify full
            costs of outputs, which Air Traffic Organization (ATO) defines
            as service delivery points or facilities, such as individual air
            traffic control towers.

                 Managers could compare the full costs of similar activities and
                  focus on types of costs requiring attention to operate more
                  efficiently.

                 The accounting standards require agencies to identify full cost
                  information before establishing user fees. Government policy
                  provides, with exceptions, user fees should recover full costs of
                  services.
                                                                                18




Exhibit D. Briefing to FAA on Cost Accounting System
                                                                                          25




          Finding 3 (cont’d.)

         FAA does not assign significant investment costs to ATO’s
          specific facilities and activities.

         In FY 2007, $1.5 billion was not assigned directly to specific
          facilities and activities or indirectly through overhead
          allocations.

               FAA excluded investment, acquisition, and substantial
                depreciation costs from the costs of its outputs.

         FAA managers only account for these costs at higher
          organizational levels because facility managers indicated the
          costs are not subject to their facility management control.
                                                                                 19




           Finding 3 (cont’d.)
          Federal accounting standards address managers’ concerns
           that they should be accountable for costs they control. The
           standards permit agencies to make a distinction between
           controllable and uncontrollable costs, but require identification
           of full costs. Full cost information is essential for comparing
           services produced by other entities within Government or the
           private sector.

          Federal accounting standards require costs benefiting more
           than one facility be assigned on a cause-and-effect basis or
           allocated as overhead (indirect costs) to the service output
           (cost objectives).
               The costs making up the $1.5 billion benefited more than one
                facility or activity, and therefore, should have been allocated to
                overhead.

                                                                                     20




Exhibit D. Briefing to FAA on Cost Accounting System
                                                                               26




          Finding 3 (cont’d.)

           Accounting for full costs at individual facility levels is
            essential for developing benchmarks and performance
            goals to reduce FAA’s costs, and ensure Congressional
            and Governmental decisions are based on accurate cost
            information.
           FAA does not use data from the cost accounting system to
            set goals to measure performance and operate more
            efficiently.
           Instead of relying on CAS reports, FAA is relying on other
            information such as budget data and labor distribution
            reports that do not provide the precision and level of
            detail, such as costs of individual activities, provided by
            CAS.

                                                                         21




           Finding 3 (cont’d.)

           Federal regulation states the objective of a cost accounting
            system is to provide management with accurate cost data to
            help manage and improve operational efficiency and
            economy.
           Cost data can be used to assess the costs of what is
            measured. By not using CAS as intended, FAA is missing
            opportunities to achieve performance efficiencies and
            operational cost savings.




                                                                          22




Exhibit D. Briefing to FAA on Cost Accounting System
                                                                                    27




          Finding 4
         FAA Has Not Adequately Documented
         Procedures Governing Cost Accounting
         System Processes
          Despite repeated recommendations from our prior
           assessments, FAA’s documentation of the CAS policies and
           procedures is not adequate.
               Significant procedures are retained only in the memories of a few
                key staff, for example, recording financial statement adjusting
                entries as expenses in the cost accounting system.
          Documentation is vague, limited, or missing.
               For example, the process for producing quarterly cost accounting
                reports was not documented.


                                                                             23




           Finding 4 (cont’d.)

               The language of the documents is technical and not
                presented in layman’s terms.
                    For example, cost allocation methodologies were not
                     described in understandable terms.
               FAA is taking action to document the system processes.
                A consultant’s summarization is estimated to be
                completed by January 2008.




                                                                              24




Exhibit D. Briefing to FAA on Cost Accounting System
                                                                                      28




          Recommendations

          We recommend that the FAA Acting Administrator:
           1. Direct the Chief Financial Officer to:
                 a. Strengthen procedures and controls to ensure
                 hours worked are charged to the proper projects, instead
                 of “No Project,”
                b. Comply with Federal accounting standard Number 4
                and use cost accounting system data to measure
                performance and manage operations for all lines of
                business, and
                c. Ensure that the cost accounting system documentation
                contains sufficient detail and procedures to comply with
                Federal accounting standards.

                                                                                25




           Recommendations (cont’d.)

            2. Direct the Chief Operating Officer, ATO, to:
                 a. No later than March 31, 2008, implement the system
                 change request to be added in the ART system to prevent
                 hours being charged to “No Project,” and

                 b. Distribute all costs, including investment costs, to each
                 service delivery point and report the results to FAA
                 management.




                                                                                 26




Exhibit D. Briefing to FAA on Cost Accounting System
                                                                                                29



           Eight Required Assessment
           Areas of FAA’s Cost
           Accounting System
           AIR 21 required assessments of:

           1. The method for calculating overall costs and attributing these
              costs to specific users is appropriate, reasonable, and
              understandable.
              FAA’s method is reasonable and amounts reported in the CAS were
              consistent with amounts in the financial accounting system; however,
              FAA does not use the CAS to assign all costs to specific facilities and
              activities.
           2. Cost input data, including reliability of the administration’s source
              documents and the integrity and reliability of the administration’s
              data collection process.
              FAA has adequate source documents and cost input data for reporting
              costs of activities in its cost accounting system; however, weaknesses
              were found in timely and accurate reporting in CIP account, and “No
              Project” labor hours were reported without correction.

                                                                                       27




            Eight Required Assessment
            Areas of FAA’s Cost
            Accounting System
         3. The system for tracking assets.
            Since FY 2004, FAA implemented an integrated property management
            system to track assets. For FY 2007, KPMG LLP identified a lack of timely
            processing of transactions and accounting for property, plant, and equipment,
            including the CIP account as a material weakness, which was similar to the
            weaknesses reported for FY 2006. The untimely processing, and other
            internal control weaknesses, resulted in expenses not being accurately
            accounted for in the CAS.
         4. Methods for establishing asset values and depreciation.
            The material weakness of FAA’s lack of timely processing of transaction and
            reconciliation accounts identified by KPMG mostly affected the CIP account.
            FAA did not have effective policies, procedures, and internal controls to
            capitalize CIP projects in a timely manner and could not adequately support
            the CIP account balance totaling $4.7 billion (as of September 30, 2006). This
            resulted in FAA’s receiving a qualified audit opinion. In FY 2007, FAA
            completed a review of CIP, resulting in the reclassification of $1.7 billion from
            CIP to in-use fixed assets and more than $900 million from CIP to expense.
            Since more than $900 million should have been recorded as expenses, costs
            for facilities were understated in CAS.                                        28




Exhibit D. Briefing to FAA on Cost Accounting System
                                                                                                  30



          Eight Required Assessment
          Areas of FAA’s Cost
          Accounting System
          5.    The system of internal controls for ensuring the consistency and
                reliability of reported data.
                FAA has made marked progress in improving accuracy in accounting
                for labor costs; however, internal control weaknesses still exist in its
                labor distribution system, which is an essential part of the CAS. FAA
                has not institutionalized controls over its practices for capitalizing
                property, plant, and equipment, including CIP. Additionally, FAA has
                not developed a clear set of documented policies, procedures, and
                practices for CAS and associated internal controls, as required by
                Federal accounting standards.
          6.    The definition of the services to which FAA ultimately attributes
                its cost.
                FAA has implemented cost accounting and defined services for each
                of its four lines of business. The definition of services for each line of
                business is reasonable.


                                                                                         29




           Eight Required Assessment
           Areas of FAA’s Cost
           Accounting System
           7. Cost pools that FAA uses and the rationale for and reliability of
              the bases it proposes to use in allocating costs of services to
              users.
              FAA collected its agency-wide indirect costs for all of its lines of
              business into cost pools and used allocation bases in compliance with
              Federal accounting standards. An exception is that $1.5 billion of
              acquisition and investment costs were excluded from overhead cost
              pools. The costs should have been included in overhead since they
              are not directly identifiable with service delivery points/ATO facilities or
              assignable on a cause-and-effect basis.
           8. Progress of FAA in cost and performance management, including
              the use of internal and external benchmarking in improving the
              performance and productivity of the administration.
              As reported in prior assessments, FAA continues to not use cost
              accounting data to set goals to manage operations more efficiently.


                                                                                             30




Exhibit D. Briefing to FAA on Cost Accounting System
                                                                                     31

APPENDIX. AGENCY COMMENTS

                   Federal Aviation
                   Administration


Memorandum
Date:          February 20, 2008
To:            Mark H. Zabarsky, Assistant Inspector General for Acquisition and
               Procurement Audits
From:          Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO
Prepared by:   Anthony Williams, x79000
Subject:       OIG Draft Report: Assessment of Cost Accounting System and Practices
               Federal Aviation Administration



Thank you for the opportunity to comment on the findings and recommendations of the
subject draft report, dated December 26, 2007. We concur with recommendations 1
through 4 and partially concur with recommendation 5. Please refer to the attachment for
the agency’s response and actions taken or planned for each recommendation.

If you have any questions or need further information, please contact Anthony Williams,
Budget Policy Division, ABU-100. He can be reached at (202) 267-9000.


Attachment




Appendix. Agency Comments
                                                                                        32

            FAA Response to Inspector General’s Draft Report
          “Assessment of Cost Accounting System and Practices,”
                        Project No. 04F3019F000

Recommendation 1: Strengthen procedures and controls to ensure the hours worked are
charged to the proper projects, instead of “No Project”.

FAA Response: Concur.

Action Planned:

In July 2007 FAA completed the labor distribution reporting (LDR) implementation of
six staff offices, thereby completing the full agency-wide implementation of LDR. FAA
plans to train staff on the use of LDR reporting tools. The training will be conducted
during March and April 2008.

FAA monitors the compliance rate of all lines of business (LOB) and Staff Offices and
compliance rates are reported to senior FAA management on a monthly basis. FAA units
falling below corporate goals will be scheduled for re-familiarization training. FAA is
determining the feasibility of undertaking this effort and will have a plan of action after
discussion with senior management.

The Air Traffic Organization (ATO), the major line of business within FAA, uses a two-
pronged approach to eliminate “NoProject” charging. The activities in this approach
outlined below are ongoing and do not have a specific due date.

1) Utilize ATO LDR Quality Assurance Resource (QAR)/Timekeeper Network
   a) ATO Finance will continue to hold regular telecons with the ATO LDR
       QAR/Timekeeper Network of over 3,200 personnel to provide current LDR-
       related guidance, monitor LDR-related issues across ATO, and address them as
       soon as possible. Subject Matter Experts (SME) from ATO-A, Cru-X Program
       Office; the Office of Financial Services, RADS Program Office; and the Office of
       Human Resource Management, CASTLE Program Office will continue to
       participate in the meetings to hear the issues and provide system updates with
       real-time answers to questions.
   b) ATO Finance will continue to provide as-needed LDR-related training for the
       ATO LDR QAR/Timekeeper Network to ensure an educated LDR support
       network.
   c) ATO Finance will continue to send regular email messages to the ATO LDR
       QAR/Timekeeper Network with updates on LDR-related system issues and
       current LDR-related guidance.
   d) ATO Finance will continue to provide a live Help Desk, backed up by Finance
       System SMEs, to answer questions and address LDR-related issues for ATO
       managers, employees, and members of the ATO LDR QAR/Timekeeper Network.




Appendix. Agency Comments
                                                                                       33

2) Monitor LDR-Related Financial Systems
   a) ATO Finance will continue to monitor LDR-related financial systems for errors
      and software bugs. They will process System Change Requests (SCRs) for issues
      encountered and provide follow up to correct the problem.
   b) ATO Finance will continue to follow projects and tasks through the system to
      ensure correct processes are followed (i.e., syntax, templates, LOB entry into
      system) and any errors are corrected as necessary.
   c) ATO Finance will ensure that LDR compliance results are reported to each ATO
      Vice President and the Senior Vice President for Finance each pay period.
   d) ATO Finance will work closely with the Cru-X Program Office to scrutinize NDC
      data tables for accuracy.
   e) ATO Finance will push system owners (e.g., ATO-A for Cru-X) to provide
      system fixes rather than continue to rely on employee work-arounds for software
      problems.

Management Comments: The training processes, and procedures listed above were
developed during fiscal years (FY) 2006 and 2007 and have proven effective in
eliminating “NoProject” hours. The ATO LDR compliance has improved steadily thru
2007 with compliance in pay period 1 at 95.94 percent. By pay period 26, it had
improved to 98.4 percent -- a 2.5 percent increase. Annualized that equates to the
elimination of approximately 2 million “NoProject” hours.

Along with these advances, the Department of Transportation CASTLE Program Office
corrected their amendment process, which fixed an issue that kept several hundred
thousand amendments from successfully processing. The Cru-X Program Office plans
two software releases in FY 2008 intended to address long-standing issues of decimal
rounding and annual leave in non-allowable increments.

Our focus on improving the accuracy and user-friendliness of LDR-related financial
systems, coupled with continued support for and by the LDR QAR/Timekeeper Network,
should positively impact future ATO LDR compliance rates.

As of pay period 02 in FY 2008, ATO-wide LDR Compliance was 98.57 percent. That
equates to 358,542 No Project out of a possible 6.4 million hours charged. 87.7 percent
of No Project hours are attributed to two service units--Tech Ops (45.6percent) and
Terminal (42.1 percent).

Terminal LDR is collected systematically in Cru-X/ART and sent to CASTLE thru Cru-
Support. With the Cru-X/ART/Cru-Support release in May 2008, we expect a dramatic
increase in Terminal LDR Compliance.

In February, ATO will work with their LDR QAR’s and Program Managers, thru
financial systems query, to detect and correct any system problems causing delays in
project availability for charging and issue SCR’s when necessary.




Appendix. Agency Comments
                                                                                         34


Recommendation 2: Comply with Statement of Federal Financial Accounting Standard
No. 4 and use cost accounting system data to measure performance and manage
operations for all lines of business.

FAA Response: Concur.

Action Planned: FAA is continuing efforts to use Cost Accounting System (CAS) data to
examine and improve agency operations. As a new business plan goal beginning in
FY 2007 and continuing today, the CFO requests LOBs to report on cost efficiency
metrics using CAS data within 90 days of the end of the reporting quarter. As part of the
“90 Day” reviews, ABA will:

   •   Work with LOBs to identify cost efficiency metrics using CAS data. For instance
       a comparison of costs of operations between two similar units within an LOB
       would be useful, or cost per unit of output, if the respective LOB has that program
       data readily available,
   •   Determine the utility of using CAS data in daily operations, taking into account
       that:
           o CAS processes and reports are updated quarterly
           o Short and intermediate term plans are to process CAS data within 38 days
               of quarter closing for FY 2008 and 30 days in FY 2009. In FY 2010 CAS
               processing should be monthly and reports will be available 30 days after
               month end,
           o Longer term plans are for FY 2012 (or possibly later), CAS may be better
               integrated with the Oracle Federal Financial product. This will depend on
               what the manufacturer (assumed to be Oracle) offers and what DOT
               acquires and implements. The hope is to integrate CAS with the future
               version of what is currently Delphi and have more timely data and
               reporting capabilities,
   •   Gather recommendations for future reporting improvements,
   •   Examine possible methods for LDR improvements in compliance rates or
       charging practices,
   •   Review overhead and/or indirect expense charging, and
   •   Post accruals for major contracts utilized by ATO improving the accuracy and
       completeness of CAS data.

Results in working with each LOB may vary. There is no actual target date for this
effort, but a goal of making CAS data more useful for each LOB’s cost management
processes. Therefore FAA can only provide a status of the effort at the end of each 90
day reporting period.




Appendix. Agency Comments
                                                                                        35


Recommendation 3: Ensure that the cost accounting system documentation complies
with Federal accounting standards.

FAA Response: Concur.

Action Planned: The Cost Methodology Report is being updated to reflect how the CAS
operated in FY 2006 and will be finalized by the end of February. The report is designed
for a reader to understand the CAS configuration and how it treats ATO costs. In
addition, we will be documenting the methodology used for FY 2007 CAS data. This
version will serve as the basis for the update to the FY 2009 overflight fee rates. Planned
for completion by the end of June, it will reflect the use of CAS by the Office of Airports
and the Office of Aviation Safety.

Recommendation 4: Implement the system change request in the ART system to
prevent hours being charged to “No Project” by March 31, 2008,

FAA Response: Concur.

Action Planned: This change is being accomplished in two steps. First, the May 1
release of CRU-X/ART will no longer convert time to decimal, but remain in minutes.
Second, the May 15 release of Cru-Support will record all time in minutes.

Recommendation 5: Distribute all acquisition costs for ATO to each service delivery
point, and report the results to FAA management.

FAA Response: Partially Concur.

Action Planned: FAA will conduct a cost-benefit analysis (CBA) by June 30 to
determine the additional processes and reports needed to fully distribute and manage all
costs to service delivery points (SDPs). Once the CBA is completed, a decision will be
made on whether or not to proceed with system changes or leave the system as is. The
FAA will notify the Office of the Inspector General of their decision no later than
July 31.

Management Comments: A review of SFFAS #4 allows FAA latitude in defining
responsibility and cost segments. For financial and budgetary reporting, the
responsibility segment is FAA. For cost accounting, FAA has defined the responsibility
segment as the LOBs. ATO has further defined SDPs as cost centers and not
responsibility segments.

ATO has designed management cost reports by service area at four levels of
manageable/responsible costs. All costs have been fully allocated to the levels at which
ATO manages. The issue of distributing costs to the lowest level (from level two to level
one) would: 1) degrade the usefulness of the current reporting structure, 2) apply costs
that ATO does not manage at the Service Delivery Point level, and 3) apply costs for
which the SDP is not responsible. ATO management does not intend to manage certain
indirect costs at the SDP level.

Appendix. Agency Comments
